TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   The Office of Appeals Continues to Show
                         Improvement in Processing
                        Collection Due Process Cases



                                      September 12, 2008

                              Reference Number: 2008-10-160




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information

 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                September 12, 2008


 MEMORANDUM FOR CHIEF, APPEALS

 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – The Office of Appeals Continues to Show
                                Improvement in Processing Collection Due Process Cases
                                (Audit # 200810003)

 This report presents the results of our review of the Collection Due Process (CDP).1 The overall
 objective of this review was to determine whether the Internal Revenue Service (IRS) complied
 with the provisions of 26 United States Code Sections 6320 and 6330 when taxpayers exercised
 their rights to appeal the filing of a Notice of Federal Tax Lien or the issuance of a notice of
 intent to levy.2 The Treasury Inspector General for Tax Administration is required to determine
 annually whether the IRS complied with the legal guidelines and procedures for the filing of a
 Notice of Federal Tax Lien or the issuance of a notice of intent to levy and the right of the
 taxpayer to appeal.3

 Impact on the Taxpayer
 The Office of Appeals (Appeals) has continued to improve the processing of CDP cases as a
 whole by generally classifying taxpayer requests properly, developing additional CDP
 procedures, and ensuring that the Collection Statute Expiration Dates4 for taxpayer accounts
 were correct. However, we identified a few instances in which taxpayers were not provided with
 their right to a hearing because Appeals employees did not make sufficient attempts to contact
 the taxpayers before closing their cases. Additionally, correspondence to some taxpayers was


 1
   A detailed explanation of the CDP and Equivalent Hearing procedures is included in Appendix V.
 2
   26 U.S.C. Sections (§§) 6320 and 6330 (Supp. III 2000).
 3
   26 U.S.C. §§ 7803(d)(1)(A)(iii) and (iv) (Supp. III 2000).
 4
   The date when the statute of limitations for collection of an outstanding balance expires. The statutory period for
 collecting a tax is normally 10 years from the date of assessment (26 U.S.C. § 6502).
                        The Office of Appeals Continues to Show Improvement
                             in Processing Collection Due Process Cases



not accurate or clear or did not fully address all issues raised by the taxpayers. As a result,
taxpayers could experience increased burden if they have to contact the IRS for additional
assistance.

Synopsis
Appeals has improved the handling of CDP cases when taxpayers exercised their rights to appeal
the filing of a Notice of Federal Tax Lien or the issuance of a notice of intent to levy. In our
prior review,5 we reported that hearing officers were still not consistently including impartiality
statements in their case files. Our current review discovered that although this condition still
exists, Appeals has implemented revised procedures that will address the condition for the next
review period. Also, previously, the hearing officers were not always documenting whether the
Collection function met all legal and administrative requirements, and some taxpayers had their
Collection Statute Expiration Dates incorrectly extended. This audit found 1) that Appeals is
documenting whether all legal and administrative requirements have been met, and 2) no
instances of incorrect extensions of Collection Statute Expiration Dates.
However, we identified a small portion of CDP and Equivalent Hearing cases in which the
hearing officers did not include the impartiality statements. In addition, we identified a few
instances in which taxpayers were not provided with their right to a hearing because Appeals
employees did not make sufficient attempts to contact the taxpayers before closing their cases.
Also, some taxpayers might not have received an appropriate or complete response to the issues
raised in their appeals because some case files did not include documentation required for us to
evaluate the completeness of the response. Some taxpayers received correspondence that was
not accurate or clear or did not fully address the issues raised by the taxpayers. As a result, we
could not determine if taxpayer rights were potentially violated. Finally, we identified taxpayer
accounts that did not contain required coding to identify those taxpayers who had exercised their
appeal rights for a CDP hearing or an Equivalent Hearing.

Recommendations
We recommended that the Chief, Appeals, re-emphasize to Appeals employees the requirements
for 1) contacting taxpayers (or their authorized representatives) and ensuring that these
procedures are being followed before approving case closings and 2) including certain
documentation in the Appeals files, such as the taxpayer’s hearing request and correspondence to
the taxpayer. The Chief, Appeals, should also 3) re-emphasize to employees that letters must be
accurate and understandable to the taxpayer and that all taxpayer issues must be addressed before


5
 The Office of Appeals Has Improved Its Processing of Collection Due Process Cases (Reference
Number 2007-10-139, dated September 21, 2007).
                         The Office of Appeals Continues to Show Improvement
                              in Processing Collection Due Process Cases



the taxpayer’s case is closed, 4) revise Appeals policies and procedures to ensure that appropriate
computer coding is entered for each type of hearing request for all tax periods, and 5) ensure that
all taxpayer accounts we identified in our samples as being incorrectly coded are corrected.

Response
The IRS agreed with all of our recommendations. Appeals management will post an article to
the Appeals web site to remind employees of the requirement for contacting taxpayers (or their
authorized representatives) who have requested a CDP hearing. In addition, Appeals
management will conduct meetings with their employees in the campus6 sites where CDP cases
are closed and closed office files are prepared to review which documents are required to be
retained in a closed office file. Appeals management will also post articles to the Appeals web
site to remind all personnel that they must ensure the letters are accurate and presented in a
manner that is understandable to the taxpayer, as well as remind employees of the requirement to
address all taxpayer issues before closing the taxpayer’s case. Further, Appeals management
will revise procedures to ensure that CDP and Equivalent Hearing requests are properly posted to
the CDP Tracking System when received in Appeals and will develop new procedures for
verifying appropriate and correct front and back-end IDRS coding. Finally, Appeals
management has corrected all inaccurate taxpayer IDRS accounts that we identified during this
audit. Management’s complete response to the draft report is included as Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




6
 The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                              The Office of Appeals Continues to Show Improvement
                                  in Processing Collection Due Process Cases




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Taxpayers Were Not Always Given the Opportunity for a Hearing,
          and Certain Documentation Was Not Available to Determine
          Whether the Office of Appeals Addressed All Taxpayer Issues ..................Page 4
                    Recommendations 1 and 2: ................................................Page 6

          Hearing Officers Did Not Document Their Impartiality
          in a Few Cases ..............................................................................................Page 7
          Letters to Taxpayers Were Not Always Accurate or Clear or
          Did Not Fully Address All Issues Raised by Taxpayers...............................Page 7
                    Recommendation 3:..........................................................Page 8

          Some Office of Appeals Cases Did Not Include the Correct Computer
          Coding on Taxpayer Accounts......................................................................Page 9
                    Recommendation 4:................................................................................Page 10

                    Recommendation 5:................................................................................Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 12
          Appendix II – Major Contributors to This Report ........................................Page 15
          Appendix III – Report Distribution List .......................................................Page 16
          Appendix IV – Outcome Measures...............................................................Page 17
          Appendix V – Collection Due Process Procedures ......................................Page 21
          Appendix VI – Management’s Response to the Draft Report .....................Page 23
         The Office of Appeals Continues to Show Improvement
             in Processing Collection Due Process Cases




                    Abbreviations

ACDS          Appeals Centralized Database System
CDP           Collection Due Process

EH            Equivalent Hearing
IDRS          Integrated Data Retrieval System
IRS           Internal Revenue Service
U.S.C.        United States Code
                          The Office of Appeals Continues to Show Improvement
                              in Processing Collection Due Process Cases




                                             Background

When initial contacts by the Internal Revenue Service (IRS) do not result in the successful
collection of unpaid tax, the IRS has the authority to attach a claim–a Notice of Federal Tax Lien
(lien)–to a taxpayer’s assets.1 The IRS also has the authority to seize or impose a levy on a
taxpayer’s property, such as wages or bank accounts, to satisfy a taxpayer’s debt.2
In February 1996, the IRS established procedures that allowed taxpayers to appeal the filing of a
lien and proposed or actual levies. Congress enacted legislation to protect taxpayers’ rights in
the IRS Restructuring and Reform Act of 1998.3 Taxpayers now have the right to a hearing with
the Office of Appeals (Appeals) under the Collection Due Process (CDP).4 Appeals is
independent of other IRS offices, and its mission is to resolve tax controversies, without
litigation, on a basis that is fair and impartial to both the Federal Government and the taxpayer.
When a taxpayer requests an Appeals hearing regarding the filing of a lien or the issuance of a
notice of intent to levy within the required time period, the taxpayer is granted a CDP hearing. If
the IRS does not receive the taxpayer’s request within the required period (generally 30 calendar
days), the taxpayer might be granted an Equivalent Hearing (EH). Additionally, the taxpayer
must request the EH within 1 year of the issuance of the CDP notice. Appeals changed its
procedures to comply with these November 16, 2006, amended CDP regulations.
Taxpayers have the right to petition the United States Tax Court if they disagree with the
Appeals decision from a CDP hearing. When Appeals makes a final decision on a taxpayer’s
case, the hearing officer issues a Determination Letter on CDP cases5 or a Decision Letter on
EH cases. During Fiscal Year 2007, Appeals closed 25,212 CDP cases and 9,436 EH cases.
The Treasury Inspector General for Tax Administration is required to determine annually
whether the IRS has complied with legal guidelines and procedures for the filing of a lien or a
notice of intent to levy and the rights of the taxpayer to appeal.6 This is our eighth annual audit
of taxpayer appeal rights.




1
  26 United States Code (U.S.C.) Section (§) 6321 (Supp. III 2000).
2
  26 U.S.C. § 6331 (Supp. III 2000).
3
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
4
  Appendix V provides an explanation of the CDP and Equivalent Hearing procedures.
5
  For some CDP cases, the hearing officer gives the taxpayer a Summary Notice of Determination.
6
  26 U.S.C. §§ 7803(d)(1)(A)(iii) and (iv) (Supp. III 2000).
                                                                                                              Page 1
                         The Office of Appeals Continues to Show Improvement
                             in Processing Collection Due Process Cases



Our previous audit report on the Appeals process was issued in September 2007,7 and the
related corrective actions were planned for implementation by January 2008. The scope
period for this year’s audit covered CDP and EH cases closed between October 1, 2006, and
September 30, 2007, which was earlier than the planned implementation date for the corrective
actions. Because the cases in this audit were closed prior to completion of corrective actions by
the IRS, we did not make recommendations in this report for conditions repeated from the
previous audit.
This review was performed by contacting Appeals personnel in Detroit, Michigan;
San Francisco, California; and the National Headquarters in Washington, D.C., during the period
October 2007 through June 2008. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




7
 The Office of Appeals Has Improved Its Processing of Collection Due Process Cases (Reference
Number 2007-10-139, dated September 21, 2007).
                                                                                                Page 2
                          The Office of Appeals Continues to Show Improvement
                              in Processing Collection Due Process Cases




                                       Results of Review

Appeals has continued to show improvements in the processing of CDP cases as a whole by
generally classifying taxpayer requests properly, developing additional CDP procedures, and
ensuring that the Collection Statute Expiration Dates8 for taxpayer accounts were correct. For
example, previously, the hearing officers were not always documenting whether the Collection
function met all legal and administrative requirements, and some taxpayers had their Collection
Statute Expiration Dates incorrectly extended. This audit found that Appeals is documenting
whether all legal and administrative requirements were met and no instances of incorrect
extensions of Collection Statute Expiration Dates.
However, we identified a few instances in which taxpayers were not provided with their right to
a hearing because Appeals employees did not make sufficient attempts to contact the taxpayers
before closing their cases. In addition, some taxpayers might not have received an appropriate or
complete response to the issues raised in their appeals because some case files did not include
required documentation. Without the appropriate case documentation, we could not identify the
issues raised by the taxpayer or whether Appeals adequately addressed all issues in the
taxpayer’s hearing. Further, hearing officers are still not always documenting their impartiality
in the case files.
We also found correspondence to some taxpayers was not accurate or clear or did not fully
address all issues raised by the taxpayers. As a result, taxpayers could experience increased
burden if they have to contact the IRS for additional assistance.
Finally, we identified taxpayer accounts that did not contain required computer coding to identify
those taxpayers who had exercised their appeal rights for a CDP hearing or an EH. As a result,
IRS employees who access the taxpayers’ accounts for review or to take subsequent actions will
not be aware of the taxpayers’ appeals. This could result in erroneous collection actions,
inappropriate suspension of collection activity, or incorrect information or advice from
IRS personnel.




8
 The date when the statute of limitations for collection of an outstanding balance expires. The statutory period for
collecting a tax is normally ten years from the date of assessment (26 U.S.C. § 6502).
                                                                                                              Page 3
                          The Office of Appeals Continues to Show Improvement
                              in Processing Collection Due Process Cases



(CDP or EH) as required. As a result, we could not determine if taxpayer rights were potentially
violated.
Based on our results, we estimated that the following numbers of taxpayers in our sample period
might not 1) have received adequate responses from Appeals, or 2) had their hearing requests
properly classified, resulting in potential violations of taxpayer rights:
     •   720 taxpayers whose case files did not contain the Determination Letters.
     •   135 taxpayers whose case files did not contain the Decision Letters.
     •   721 taxpayers whose CDP hearing requests were missing.
     •   539 taxpayers whose EH requests were missing.

Recommendations
The Chief, Appeals, should re-emphasize to Appeals employees the requirements for:
Recommendation 1: Contacting taxpayers (or their authorized representatives) who have
requested a CDP hearing. In addition, Appeals management should re-emphasize that
established procedures for contacting taxpayers are being followed before approving cases for
closure, particularly when there have been no contacts with the taxpayers.
         Management’s Response: IRS management agreed with our recommendation and
         will post an article to the Appeals web site to remind Appeals employees of the
         requirement for contacting taxpayers (or their authorized representatives) who have
         requested a CDP hearing. The article will emphasize the procedures in the Internal
         Revenue Manual11 when there has been no contact with the taxpayer, and management’s
         role in reviewing cases for closure.
Recommendation 2: Including certain documentation in the Appeals files, such as the
taxpayer’s hearing request and correspondence to the taxpayer.
         Management’s Response: IRS management agreed with our recommendation and
         will conduct meetings with their employees in the campus12 sites where CDP cases are
         closed and closed office files are prepared. The meeting will include a review of which
         documents are required to be retained in the closed office file.




11
   The Internal Revenue Manual is the single official source for IRS policies, directives, guidelines, procedures, and
delegations of authority in the IRS.
12
   The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                               Page 6
                          The Office of Appeals Continues to Show Improvement
                              in Processing Collection Due Process Cases



         are accurate and presented in a manner that is understandable to the taxpayer. In
         addition, an article will be posted to remind all employees of the requirement to address
         all taxpayer issues before closing the taxpayer’s case.

Some Office of Appeals Cases Did Not Include the Correct Computer
Coding on Taxpayer Accounts
The IRS uses specific coding on its computer system (the Integrated Data Retrieval System –
IDRS)15 to identify those taxpayers who exercised their appeal rights for CDP hearings and EHs.
Because IRS employees use the IDRS as the primary tool for researching a taxpayer’s account,
the computer transcript must reflect all actions that occurred, including taxpayer appeals.
If the receipt of an Appeals hearing request and closure of the hearing are not recorded on the
IDRS, inappropriate collection activity (or unnecessary suspension of collection activity) could
occur. Further, the IRS might provide inaccurate information or advice to a taxpayer such as
suggesting that a CDP hearing or an EH could still be held when the taxpayer had already
received a hearing.16 For example, taxpayers might call the IRS Customer Service function or
the Taxpayer Advocate Service17 to obtain information on the status of their accounts or seek
assistance related to ongoing IRS activities. If the coding for Appeals hearings is inaccurate,
taxpayers might experience increased burden by obtaining incorrect advice about their issues, as
well as being denied requests for additional CDP hearings because they have already received a
prior hearing and are not entitled to additional hearings.
When a taxpayer’s hearing request is received by the IRS, it is first routed through Compliance
personnel in the Wage and Investment Division or the Small Business/Self-Employed Division.
A Compliance function employee initially enters the taxpayer’s appeal in a tracking system18 to
document that a hearing request was received.
Subsequently, when a Compliance function employee transfers the taxpayer’s case to Appeals,
Appeals is required to verify that the case has been entered in the tracking system. When
Appeals closes a CDP hearing or an EH, it is required to input a code on the tracking system to
indicate that a hearing was held and a determination/decision was made. Information on the
tracking system is systemically uploaded onto the IDRS, which allows certain IRS personnel to
track the taxpayer’s appeal through the entire hearing process.



15
   IRS computer system capable of retrieving or updating stored information. It works in conjunction with a
taxpayer’s account records.
16
   A taxpayer is entitled to only one CDP hearing regarding the tax period with the unpaid tax.
17
   The Taxpayer Advocate Service is an independent organization within the IRS that helps taxpayers resolve
problems with the IRS and recommends changes that will prevent the problems.
18
   This tracking system is a database within Appeals that is used to monitor the progress and location of hearing
requests.
                                                                                                              Page 9
                     The Office of Appeals Continues to Show Improvement
                         in Processing Collection Due Process Cases



       Management’s Response: IRS Management agreed with this recommendation and
       will revise the procedures to ensure that CDP and EH requests are properly posted to the
       CDP Tracking System when received in Appeals. New procedures will include verifying
       appropriate and correct front and back-end IDRS coding.
Recommendation 5: Correct all taxpayer accounts we identified in our samples to ensure that
the proper codes are reflected on the IDRS.
       Management’s Response: IRS management agreed with our recommendation and
       reviewed and corrected all of the inaccurate taxpayer accounts.




                                                                                       Page 11
                         The Office of Appeals Continues to Show Improvement
                             in Processing Collection Due Process Cases



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

The objective of this review was to determine whether the IRS complied with the provisions of
26 U.S.C. §§ 6320 and 6330 when taxpayers exercised their rights to appeal the filing of a Notice
of Federal Tax Lien (lien) or the issuance of a notice of intent to levy.1 To accomplish this
objective, we:
I.      Determined whether any new procedures or processes had been developed since
        completion of the prior Treasury Inspector General for Tax Administration statutory
        review.2 This involved requesting documentation from Office of Appeals (Appeals)
        personnel supporting the implementation of corrective actions to our prior audit reports
        and other procedural or process changes.
II.     Determined whether Appeals CDP3 and EH office and administrative case files could be
        secured and contained minimum documentation required for a hearing.
        A. Obtained a computer extract of CDP and EH cases closed between October 1, 2006,
           and September 30, 2007, from the Appeals Centralized Database System (ACDS)4
           file maintained at the Treasury Inspector General for Tax Administration Data Center
           Warehouse.5 We validated the computer extract using information from the Data
           Center Warehouse, reviewed the appropriateness of data within fields requested, and
           compared population totals to information obtained from Appeals personnel.
        B. Selected samples of 70 CDP and 70 EH case files.
             1. Selected statistical attribute samples of 70 CDP cases (from a population of
                25,212 CDP cases) and 70 EH cases (from a population of 9,436 EH cases) based
                on a confidence level of 90 percent, a precision rate of ±6 percent, and an
                expected error rate of 10 percent. We selected a statistical sample because we
                wanted to project results to the entire universe.
             2. Requested and determined whether Appeals could provide the sampled office files
                and whether we could secure the sampled administrative files.

1
  26 U.S.C. §§ 6320 and 6330 (Supp. III 2000).
2
  The Office of Appeals Has Improved Its Processing of Collection Due Process Cases (Reference
Number 2007-10-139, dated September 21, 2007).
3
  A detailed explanation of the CDP and EH procedures is included in Appendix V.
4
  The ACDS is a computerized case control system used to control and track cases throughout the appeals process.
5
  The Treasury Inspector General for Tax Administration Data Center Warehouse stores taxpayer data and allows
auditors to query and download data needed for audit work.
                                                                                                         Page 12
                     The Office of Appeals Continues to Show Improvement
                         in Processing Collection Due Process Cases



          3. For each sample case file received, determined whether the file contained the
             minimum documentation required to support a CDP hearing or an EH, which
             included Notice of Intent to Levy (Letter 1058/LT11) and/or Notice of Federal
             Tax Lien Filing and Your Right to a Hearing Under IRC 6320 (Letter 3172);
             Request for a Collection Due Process Hearing or Equivalent Hearing
             (Form 12153) or similar taxpayer request; ACDS Case Summary Card; ACDS
             Case Activity Record; Appeals Transmittal and Case Memo (Form 5402);
             Notice of Determination Concerning Collection Action(s) Under Section 6320
             and/or 6330 (Letter 3193/3194); Summary Notice of Determination, Waiver of
             Right to Judicial Review of a Collection Due Process Determination, and Waiver
             of Suspension of Levy Action (Form 12257); Decision Letter Concerning
             Equivalent Hearing Under Section 6320 and/or 6330 of the Internal Revenue
             Code (Letter 3210); transcript of the taxpayer’s account; and Collection case
             history. We discussed exceptions with Appeals personnel.
III.   Determined whether CDP and EH cases were misclassified (i.e., should have been an
       EH or a CDP case, respectively).
       A. Using the samples selected in Step II.B.1., reviewed the ACDS, case files, and tax
          account transcript information to determine whether the taxpayers’ hearing requests
          were received within the required time periods and were properly classified.
       B. Discussed exceptions with Appeals personnel.
IV.    Determined whether Appeals was in compliance with 26 U.S.C. §§ 6320 and 6330 when
       handling CDP hearing and EH requests.
       A. Using the samples selected in Step II.B.1., determined whether the following items
          were addressed by the hearing officer:
          1. The taxpayer was provided only one hearing for the tax period related to the
             unpaid tax specified in the lien/levy notice. [26 U.S.C. §§ 6320(b)(2) and
             6330(b)(2)]
          2. The taxpayer was provided with an impartial hearing officer or waived this
             requirement. [26 U.S.C. §§ 6320(b)(3) and 6330(b)(3)]
          3. The hearing officer obtained verification that the requirements of any applicable
             law or administrative procedure were met. [26 U.S.C. § 6330(c)(1)]
          4. The taxpayer was allowed to raise issues at the hearing relating to the unpaid tax,
             the filing of the lien, and/or the proposed levy action. This could include
             appropriate spousal defenses, challenges to the appropriateness of collection
             activities, offers of collection alternatives, and/or questions about the underlying
             liability. [26 U.S.C. § 6330(c)(2)]

                                                                                          Page 13
                   The Office of Appeals Continues to Show Improvement
                       in Processing Collection Due Process Cases



        5. The hearing officer made a determination after considering whether any proposed
           collection action balances efficient tax collection with the taxpayer’s legitimate
           concern that any collection action be no more intrusive than necessary.
           [26 U.S.C. § 6330(c)(3)]
     B. Discussed exception cases with Appeals personnel to confirm and determine causes.
        After confirmation, we estimated the number of potential exceptions within the
        population.
V.   Determined whether the collection statutes were properly suspended.
     A. Using the samples selected in Step II.B.1., determined whether the collection statutes
        had been properly suspended for CDP cases and not suspended for EH cases.




                                                                                       Page 14
                    The Office of Appeals Continues to Show Improvement
                        in Processing Collection Due Process Cases



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Program)
Jeffrey M. Jones, Director
Janice M. Pryor, Audit Manager
Yasmin B. Ryan, Lead Auditor
Mary F. Herberger, Senior Auditor
Margaret A. Anketell, Senior Auditor




                                                                                    Page 15
                    The Office of Appeals Continues to Show Improvement
                        in Processing Collection Due Process Cases



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Chief, Appeals AP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Appeals AP




                                                                       Page 16
                            The Office of Appeals Continues to Show Improvement
                                in Processing Collection Due Process Cases



                                                                                                Appendix IV

                                      Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•     Taxpayer Rights – Potential; closed CDP1 case files for 2,523 taxpayers did not meet 1 or
      more requirements (see pages 4 and 7).

Methodology Used to Measure the Reported Benefit:
Using a computer extract from the ACDS,2 we identified a population of 25,212 CDP cases
closed in Fiscal Year 2007. We selected a statistical attribute sample of 70 CDP cases and found
that 7 (10 percent) case files did not meet requirements in 1 or more of the following ways:
taxpayer or his or her authorized representative was not given the opportunity for a hearing,
taxpayer’s written hearing request was missing, and/or an impartiality statement by the hearing
officer was not documented. Using a 90 percent confidence level and a precision rate of
±10.52 percent, we estimated that the rights of 2,523 taxpayers were potentially affected.

Type and Value of Outcome Measure:
•     Taxpayer Rights – Potential; closed EH case files for 944 taxpayers did not meet 1 or more
      requirements (see pages 4 and 7).

Methodology Used to Measure the Reported Benefit:
Using a computer extract from the ACDS, we identified a population of 9,436 EH cases closed in
Fiscal Year 2007. We selected a statistical attribute sample of 70 EH cases and found that
7 (10 percent) case files did not meet requirements in 1 or more of the following ways: taxpayer
or his or her authorized representative was not given the opportunity for a hearing, taxpayer’s
written hearing request was missing, and/or an impartiality statement by the hearing officer was
not documented. Using a 90 percent confidence level and a precision rate of ±10.14 percent, we
estimated that the rights of 944 taxpayers were potentially affected.



1
    A detailed explanation of the CDP and EH procedures is included in Appendix V.
2
    The ACDS is a computerized case control system used to control and track cases throughout the appeals process.
                                                                                                           Page 17
                      The Office of Appeals Continues to Show Improvement
                          in Processing Collection Due Process Cases



Using a 90 percent confidence level and a precision rate of ±2.33 percent, we estimated that
taxpayer accounts for 361 CDP case files did not contain the correct computer coding.

Type and Value of Outcome Measure:
•   Reliability of Data – Potential; taxpayer accounts for 1,483 closed EH case files did not
    contain the correct computer coding (see page 9).

Methodology Used to Measure the Reported Benefit:
Using a computer extract from the ACDS, we identified a population of 9,436 EH cases closed in
Fiscal Year 2007. We selected a statistical attribute sample of 70 EH cases and found
that the taxpayer accounts for 11 (16 percent) case files did not contain the correct computer
coding. Using a 90 percent confidence level and a precision rate of ±7.13 percent, we estimated
that taxpayer accounts for 1,483 EH case files did not contain the correct computer coding.




                                                                                           Page 20
                            The Office of Appeals Continues to Show Improvement
                                in Processing Collection Due Process Cases



                                                                                    Appendix V

                     Collection Due Process Procedures

The IRS is required to notify taxpayers in writing that a Notice of Federal Tax Lien (lien) has
been filed or when it intends to issue a notice of intent to levy.1 A taxpayer is allowed to appeal
the filing of the lien or proposed levy action through the CDP by filing a hearing request. This
hearing request must be received within 30 calendar days plus 5 business days of the filing of the
lien or within 30 calendar days of the date of the notice of intent to levy. If a taxpayer’s hearing
request is submitted on time, the IRS will suspend all collection efforts and the Office of
Appeals (Appeals) will give the taxpayer a CDP hearing.
If the taxpayer disagrees with the Appeals decision, he or she may petition the courts. If the IRS
does not receive the taxpayer’s request within the required period (generally 30 calendar days),
the taxpayer may be granted an EH. Additionally, the taxpayer must request the EH within
1 year of the issuance of the CDP notice. However, in an EH, the IRS is not required to suspend
collection action, and the taxpayer does not have the right to a judicial review.
Taxpayers are entitled to one hearing per tax period for which a lien or notice of intent to levy
has been issued. The hearing is conducted by an Appeals officer or settlement officer (hearing
officer) who has had no prior involvement with the unpaid tax. During the hearing, the hearing
officer must verify whether the requirements of all applicable laws or administrative procedures
related to the lien or notice of intent to levy have been met. The hearing officer must also
1) address any issues the taxpayer might raise relevant to the unpaid tax, the filing of the lien,
and/or the proposed levy, such as whether the taxpayer is an innocent spouse, 2) determine if
collection actions were appropriate, and 3) decide whether other collection alternatives would
facilitate the payment of the tax. The hearing officer must determine whether any proposed
collection action balances the need for efficient collection of taxes with the taxpayer’s legitimate
concerns. The taxpayer may not raise an issue that was considered at a prior administrative or
judicial hearing if the taxpayer participated meaningfully in the prior proceeding.
At the conclusion of a hearing, Appeals gives the taxpayer a letter that includes the hearing
officer’s findings, agreements reached with the taxpayer, any relief provided to the taxpayer, and
any actions the taxpayer and/or the IRS are required to take. For a CDP case, the taxpayer
receives either a Determination Letter–which provides an explanation of the right to a judicial
review–or a Summary Notice of Determination, which is used when the taxpayer agrees with
Appeals, waives the right to a judicial review, and waives the suspension of collection action.
For an EH case, the taxpayer receives a Decision Letter.


1
    26 U.S.C. Sections 6321 and 6331 (Supp. III 2000).
                                                                                            Page 21
                     The Office of Appeals Continues to Show Improvement
                         in Processing Collection Due Process Cases



At the completion of the case, the hearing officer’s manager reviews the CDP or EH case to
evaluate whether the hearing officer followed all requirements and procedures.
After Appeals has made a determination on a case, if the taxpayer has a change in circumstances
that affects the Appeals determination or if the Collection function does not carry out the
determination, the taxpayer has the right to return to Appeals. The Appeals office that made the
original determination generally retains jurisdiction over the case.




                                                                                         Page 22
      The Office of Appeals Continues to Show Improvement
          in Processing Collection Due Process Cases



                                                 Appendix VI

Management’s Response to the Draft Report




                                                        Page 23
The Office of Appeals Continues to Show Improvement
    in Processing Collection Due Process Cases




                                                  Page 24
The Office of Appeals Continues to Show Improvement
    in Processing Collection Due Process Cases




                                                  Page 25
The Office of Appeals Continues to Show Improvement
    in Processing Collection Due Process Cases




                                                  Page 26
